Before the Committee on Commerce, Science, and Transportation
Subcommittee on Aviation Operations, Safety, and Security
United States Senate



                          Progress and Challenges in
For Release on Delivery
Expected at
10:30 a.m. EDT
Wednesday
June 25, 2014             Meeting Expectations for
                          NextGen
CC-2014-023




                          Statement of
                          Matthew E. Hampton
                          Assistant Inspector General for Aviation Audits
                          U.S. Department of Transportation
Chairwoman Cantwell and Members of the Subcommittee:

Thank you for inviting me here today to testify on the Federal Aviation Administration’s
(FAA) progress and challenges in developing the Next Generation Air Transportation
System (NextGen)—a multibillion-dollar transportation infrastructure project aimed at
modernizing our Nation’s aging air traffic system. Since the effort began almost a
decade ago, we have reported on longstanding challenges and barriers that have limited
FAA’s progress in delivering NextGen capabilities, such as the Agency’s inability to set
realistic plans, budgets, and expectations, and clearly identify benefits for stakeholders.

The FAA Modernization and Reform Act of 2012 (the act) included 24 provisions
intended to help FAA better manage NextGen. In addition, in September 2013, the
NextGen Advisory Committee (NAC)—a joint Government-industry committee—
delivered a report at FAA’s request with recommendations for prioritizing NextGen
activities.

My testimony today will focus on FAA’s progress in (1) implementing NextGen-related
provisions of the act, (2) responding to NextGen priorities recommended by the NAC,
and (3) minimizing risks in implementing critical automation systems.

IN SUMMARY
FAA has implemented or is on target to implement more than half of the act’s 24
NextGen-related provisions, including appointing a Chief NextGen Officer. However,
FAA has yet to meet provisions intended to accelerate the development of critical
NextGen technologies, including a key element of the Automatic Dependent Surveillance
Broadcast (ADS-B) program—a cornerstone technology for FAA’s goals to transform air
traffic management. FAA’s inability to meet these provisions and deliver NextGen
capabilities is due to underlying programmatic challenges, such as the lack of an
executable plan for coordinating among multiple programs, unresolved complex technical
and operational issues, and ineffective collaboration with industry. FAA is also in the
early stages of responding to the NAC’s recommended investment priorities for
advancing NextGen, including establishing performance-based navigation (PBN).
Consistent with our work, the NAC confirmed the importance of PBN, which can provide
significant near-term benefits to airspace users. However, obstacles such as a lack of
updated controller policies and procedures make it uncertain when users can expect these
benefits. Finally, FAA continues to face technical, cost, and schedule risks with its efforts
to modernize or replace air traffic control automation systems that are fundamental to
achieving NextGen benefits.




                                             1
MORE THAN HALF OF THE ACT’S NEXTGEN MODERNIZATION
PROVISIONS HAVE BEEN IMPLEMENTED
As we testified in February 2014, 1 FAA has made progress implementing the act’s
NextGen provisions. As of June 2014, FAA has implemented or is on target to implement
16 of 24 NextGen-related provisions—including 3 provisions intended to advance new
air traffic procedures and technologies and increase accountability. Specifically:

• In May 2012, FAA established a program that uses third parties to develop and test
  advanced navigation procedures at five mid-sized airports.

• In October 2012, the Agency completed a multi-agency NextGen Integrated Work
  Plan that defines the responsibilities of partner agencies—such as the Department of
  Defense and the National Aeronautics and Space Administration—for conducting
  NextGen-related research.

• In June 2013, FAA appointed its Deputy Administrator as the Chief NextGen Officer.
  The Deputy Administrator will oversee FAA’s NextGen modernization efforts,
  including coordinating NextGen budgetary and planning activities across the
  Agency’s lines of business and with partner agencies. 2

Despite this progress, FAA and the Department have not implemented key provisions
that are intended to accelerate the development of NextGen technologies and achieve the
full range of NextGen benefits. Most notably, FAA has not carried out important
provisions related to accelerating ADS-B—the foundation for shifting from today’s
ground-based radar to NextGen’s satellite-based systems. Although FAA has mandated
that all airspace users purchase and install ADS-B Out—onboard avionics for
broadcasting flight information to controllers and FAA ground systems—it has not issued
a mandate for ADS-B In, 3 which enables the display of the broadcast information in the
cockpit. Moreover, the Department has not established a public-private incentive program
to encourage users to install NextGen avionics equipment on aircraft.

The act directed FAA to begin a rulemaking process for ADS-B In, with the goal of
mandating the new technology by 2020 for aircraft operating in capacity-constrained
airspace. However, technical requirements for ADS-B In continue to evolve, raising
questions about whether the technology will be available by 2020. A report 4 by the



1
  FAA’s Implementation of the FAA Modernization and Reform Act of 2012 Remains Incomplete (OIG Testimony No. CC-2014-
010), February 5, 2014. OIG reports and testimonies are available on our Web site at http://www.oig.dot.gov/.
2
  Recognizing the need to better position the Agency to execute NextGen, FAA announced a major reorganization in 2011.
Specifically, FAA appointed an Assistant Administrator for NextGen, who reports directly to the FAA Deputy Administrator,
and established a new Program Management Office.
3
  ADS-B In technology provides pilots with information transmitted from ADS-B ground stations as well as other aircraft. If an
operator chooses to equip an aircraft with ADS-B In avionics, a compatible display is needed to view the information.
4
  “A Report from the ADS-B In Aviation Rulemaking Committee to the FAA,” September 30, 2011.


                                                              2
ADS-B In Aviation Rulemaking Committee cautioned that the air-to-air 5 applications for
ADS-B In were not mature and that the costs and benefits were uncertain. The report also
stated that FAA lacks well-defined policy, equipment standards, certification and
operational approval guidance, procedures, and ground automation—all prerequisites for
a successful rulemaking effort. As a result, it is uncertain when FAA will be in position to
mandate ADS-B In and enhance airport capacity.

While FAA explores options for NextGen rulemaking initiatives, the Agency has taken
some near-term actions to advance ADS-B. FAA is providing funding for airlines to
purchase ADS-B equipment, and has entered into partnerships with several U.S. airlines
to develop and demonstrate ADS-B In applications and procedures. For example, US
Airways plans to install ADS-B systems in 20 Airbus A330 aircraft to assess the use of
cockpit displays in maintaining proper spacing between aircraft on arrivals. FAA expects
some elements of the demonstrations to be completed in 2017.

As we reported in February 2014, 6 FAA’s failure to meet congressional and industry
expectations for NextGen is largely due to a number of barriers, such as the lack of an
executable plan for coordinating among multiple programs, unresolved complex technical
and operational issues, and ineffective collaboration with industry. FAA’s NextGen
plans—which initially estimated completion by 2025 at a cost of $40 billion—lack sound
strategies for implementing a system that could handle three times more traffic while
reducing FAA’s operating costs. Moreover, FAA’s organizational culture—which is
highly operational, tactical, and safety-oriented—has been slow to embrace NextGen’s
transformational vision. Gaps in leadership have further undermined the Agency’s efforts
to advance NextGen. These weaknesses have contributed to stakeholders’ skepticism
about NextGen’s feasibility and airspace users’ reluctance to invest in costly equipment.

The extent to which FAA realigns and consolidates the Nation’s air traffic control
facilities will be another important component of the Agency’s NextGen efforts. In
compliance with the act, in December 2013, FAA provided Congress with a plan for
consolidating and realigning its air traffic facilities. The plan, developed collaboratively
with the National Air Traffic Controller Association and Professional Aviation Safety
Specialists, institutes a new process for evaluating and recommending realignments of its
terminal facilities. However, the plan is less comprehensive than the Agency’s previous
plans that we reviewed in 2012, 7 as it does not include a process for realigning and
consolidating facilities that manage high-altitude traffic. 8 Regardless, as we
recommended in 2012, it will be important for the Agency going forward to establish

5
  Air-to-air as it relates to ADS-B refers to communication of flight information between two or more ADS-B In-equipped aircraft
to improve situational awareness while in flight.
6
  Addressing Underlying Causes for NextGen Delays Will Require Sustained FAA Leadership and Action (OIG Report No. AV-
2014-031), February 25, 2014.
7
  The Success of FAA’s Long-Term Plan for Air Traffic Facility Realignments and Consolidations Depends on Addressing Key
Technical, Financial, and Workforce Challenges (OIG Report No. AV-2012-151), July 17, 2012.
8
  En route centers guide airplanes flying at high altitudes through large sections of airspace.


                                                               3
sound metrics to determine whether facility realignments and consolidations will result
in measurable cost savings, operational efficiencies, and productivity enhancements.

FAA IS WORKING WITH INDUSTRY TO IMPLEMENT HIGH-PRIORITY
NAC RECOMMENDATIONS BUT CHALLENGES REMAIN
The success of FAA’s efforts to implement NextGen depends on the Agency’s ability to
set priorities, deliver benefits, and maintain stakeholder support. To address some of
these challenges, FAA is working with industry to implement the prioritized NextGen
capabilities recommended by the NAC, which include performance-based navigation
(PBN) 9 due to its great potential for providing near-term benefits to airspace users.
Although FAA has important PBN efforts under way, the Agency faces obstacles that
make it uncertain when airspace users can expect widespread benefits.

FAA Is Working With Industry To Develop a Plan With Milestones for
Implementing Prioritized NextGen Capabilities
In July 2013, FAA requested that the NAC 10 review the Agency’s NextGen
implementation plans and recommend investment priorities, citing uncertainty around
funding for NextGen projects. The NAC delivered its report in September 2013 and
identified industry’s top NextGen priorities based on planned benefits and
implementation readiness.

Consistent with our work, the NAC ranked PBN as the top activity that FAA should
continue regardless of its budget situation. Introducing new PBN procedures, such as
Area Navigation (RNAV) and Required Navigation Performance (RNP), 11 is critical to
achieving near-term NextGen benefits, including more direct flight paths, improved on-
time aircraft arrival rates, greater fuel savings, and reduced aircraft noise. Other activities
that top the NAC’s list include unlocking closely spaced parallel runway operations,
enhancing airport surface operations through data sharing, and developing capabilities for
merging and spacing aircraft to increase PBN use. These priorities are in line with prior
NAC recommendations and a Government-industry task force. 12

FAA is working jointly with industry to develop milestones for implementing the
prioritized capabilities, which require operators to make changes to their aircraft and
flight operations centers, as well as provide additional pilot training. Specifically, FAA

9
  PBN is a blanket term for more precise GPS-based navigation methods that allow optimal routing in all phases of flight.
10
   The NAC is a Federal advisory committee that develops recommendations for NextGen portfolios with an emphasis on the
midterm (through 2018). The NAC includes representation from affected user groups, including operators, manufacturers, air
traffic management, aviation safety, airports, and environmental experts.
11
   RNAV is a method of navigation in which aircraft use avionics, such as Global Positioning Systems, to fly any desired flight
path without the limitations imposed by ground-based navigation systems. RNP is a form of RNAV that adds on-board
monitoring and alerting capabilities for pilots, thereby allowing aircraft to fly more precise flight paths.
12
   In 2009, an FAA-commissioned RTCA task force made 32 recommendations to advance NextGen and stated that focusing on
delivering near-term operational benefits, rather than major infrastructure programs, would help gain industry confidence in
FAA’s plans and encourage users to invest in NextGen. RTCA, Inc. is a private, not-for-profit corporation that functions as a
Federal advisory committee.


                                                               4
and the NAC have established “integrated” work groups to identify specific locations for
delivery, timelines for implementation, metrics for measuring benefits, and cost estimates
for each of the capabilities. The work groups have been meeting since April 2014 and are
working toward an interim report in July 2014, followed by a master implementation plan
in October 2014 that will include commitments from both FAA and industry for the next
1 to 3 years.

However, reaching these commitments may prove difficult as airspace users focus on
“capabilities,” while FAA focuses on programs and infrastructure. Airspace users also
want near-term operational benefits but FAA’s delays in defining NextGen benefits have
deepened industry’s reluctance to invest. Moreover, FAA has not always provided a clear
understanding of how it will manage and execute implementation and what it will take to
deliver these efforts—particularly in managing complex interdependencies among
programs, such as PBN and controller automation systems, to minimize risk.

According to FAA officials, the Agency does not plan to adjust its budgets since the
current capital funding level will accommodate these investment priorities without trade-
offs at this time. We will continue to monitor FAA’s efforts with setting NextGen
priorities in our ongoing review of the Agency’s progress in responding to the NAC’s
recommendations. 13

FAA Faces Obstacles in Implementing New PBN Flight Procedures To
Optimize Near-Term Benefits
As it works to develop milestones for implementing the NAC’s priority capabilities,
particularly PBN, FAA will need to continue its efforts to implement recommendations
we made to address barriers identified by our office, FAA, and the NAC. Although FAA
has introduced more than 100 RNP procedures at large airports, preliminary data 14
indicate that RNP use is low, particularly at busy airports, such as those in the New York
City area. Notably, at the 14 large airports 15 where FAA has implemented advanced PBN
procedures with curved approaches to runways, 16 only about 2 percent of eligible airline
flights 17 actually used them.




13
   OIG Audit Announcement, “Review of FAA’s Response to the NextGen Advisory Committee’s (NAC) Recommendations on
NextGen Priorities,” February 27, 2014.
14
   FAA tasked MITRE to obtain and analyze data to measure the use of PBN procedures and quantify their benefits. MITRE
Corporation manages a research and development center for FAA, the Center for Advanced Aviation System Development.
15
   The 14 large airports are Baltimore-Washington International, Chicago Midway, Denver International, Fort Lauderdale
International, Hartsfield-Jackson Atlanta International, JFK International and LaGuardia in New York, Memphis,
Minneapolis/St. Paul International, Newark Liberty, San Francisco, Seattle-Tacoma, and Dulles and Reagan National in
Washington, DC.
16
   Curved approaches to runways improve the use of airspace by allowing aircraft to avoid critical areas of terrain or conflicting
airspace, thus increasing capacity.
17
   An eligible flight is one in which (1) the aircraft was authorized to fly the RNP procedure and (2) the flight was in a position to
join the procedure.


                                                                  5
Several obstacles have undermined FAA’s efforts to increase use of PBN procedures. For
example, according to a March 2012 FAA internal study and a June 2013 NAC report, 18
controllers at busy metroplex locations lack automated tools to manage mixed
operations—that is, merging aircraft using straight-in approaches with those on curved
paths. Other reported obstacles include the lack of clearly defined operational goals for
designing PBN procedures, outdated controller procedures, and the lack of standard
training for pilots and controllers. In 2012, FAA tasked a team with developing an action
plan to address these obstacles, but it remains unclear as to when they will issue a report
on the team’s plan.

Further, it is uncertain when airspace users can expect widespread benefits. In 2010, FAA
launched its metroplex initiative—a 7-year effort to improve the flow of traffic and
efficiency at congested airports in 13 major metropolitan areas. 19 While FAA is in the
study or design and implementation phase at 9 of 13 metroplex locations, it has only
recently implemented new PBN procedures for one location—Houston, TX. According to
FAA, airline procedure design and other issues have caused delays at other metroplex
sites ranging from 2 months to over 1 year.
According to FAA, the launch of new procedures at Houston in May 2014 was a success;
however, the Agency will not know the extent of benefits realized until it completes its
6-month post-implementation assessment. As we reported in August 2012, 20 industry
representatives expressed concerns that FAA’s metroplex initiative will not maximize
benefits because the Agency has not integrated efforts from other related initiatives, such
as better managing airport taxiway, gate, and parking area operations. They also stated
concerns that FAA has not provided enough advanced PBN procedures—specifically,
those that regularly allow for more precise and curved approaches.
As we reported last week, 21 efforts to introduce more advanced routes have been impeded
by the lengthy development and approval process for new PBN procedures. In
September 2010, FAA reported numerous problems with the process, such as the lack of
an expedited method for approving procedures that require only minor revisions,
inaccurate interpretations of environmental policies and guidance, and data
inconsistencies. To address these problems, FAA made 21 recommendations for
streamlining the process for deploying new procedures in an internal review—the NAV
Lean project. 22 In June 2011, FAA issued its plan for executing the 21 recommendations

18
   NextGen Advisory Committee in Response to Tasking from the Federal Aviation Administration, “Recommendation for
Increased Utilization of Performance Based Navigation (PBN) in the National Airspace System (NAS),” June 2013.
19
   The 13 metroplex locations are: Atlanta, Boston, Charlotte, Chicago, Houston, Memphis, Northern California, North Texas,
Phoenix, Southern California, Washington, DC, Cleveland/Detroit, and South/Central Florida.
20
   Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports Could Delay Benefits (OIG Report No.
AV-2012-167), August 1, 2012.
21
   FAA Faces Significant Obstacles in Advancing the Implementation and Use of Performance-Based Navigation Procedures
(OIG Report No. AV-2014-057), June 17, 2014.
22
   NAV Lean was a cross-agency project to streamline policies and processes used to implement instrument flight procedures in
response to a 2009 joint FAA-industry task force report recommendation. FAA used the “Lean Management Process” to identify
areas of waste.


                                                             6
and to date has implemented 9. However, FAA does not expect to complete the entire
NAV Lean initiative until September 2015. Ultimately, industry will not get the full
benefits of NAV Lean—to decrease the time it takes to implement new procedures by
more than 40 percent—until all recommendations are implemented.

We made three recommendations to help mitigate barriers to PBN implementation and
expedite the development of new procedures, including completing an action plan,
establishing firm requirements and schedules, and measuring benefits regularly.

SIGNIFICANT RISKS REMAIN IN IMPLEMENTING CRITICAL NEXTGEN
AUTOMATION SYSTEMS
FAA’s goals for NextGen in the near- and mid-term also depend on the success of its
ongoing efforts to deploy new automation systems that controllers use to manage air
traffic. However, despite recent progress, FAA continues to face technical, cost, and
schedule risks with both its En Route Automation Modernization (ERAM) program—an
over $2.5 billion system for processing en route flight data—and the Terminal
Automation Modernization/Replacement (TAMR) program—FAA’s effort to modernize
terminal air traffic control facilities.

FAA Made Progress With ERAM But Recent Outages Have Exposed
Vulnerabilities
FAA’s long-term NextGen goals, such as increasing airspace capacity and reducing flight
delays, depend on fully implementing the ERAM program. ERAM, which processes
flight data to allow controllers to manage traffic at en route air traffic facilities, is a key
foundation for realizing the benefits of NextGen’s transformational programs, such as
new satellite-based surveillance systems and data communications for controllers and
pilots.

Following extensive software-related problems that resulted in significant delays and cost
increases, FAA has made progress with ERAM over the last 2 years. The Agency is now
using ERAM at 18 of FAA’s 20 en route air traffic facilities either on a full- or part-time
basis—a significant step forward given the extensive problems at the 2 initial sites. FAA
plans for all 20 sites to achieve full operational capability and to decommission 23 the
legacy system by 2015.

However, as FAA continues to deploy ERAM to the Nation’s busiest facilities, such as
those in New York City and Washington, DC, it expects to identify new problems that
could further impact cost and schedule. FAA is currently spending about $10.4 million a



23
  Decommissioning involves the disconnection, removal, and disposal of the HOST legacy computer system once ERAM has
been declared operationally ready at a site.


                                                          7
month on the ERAM contract. 24 Also, FAA has already approved an additional $160
million for ERAM enhancements through 2016 to help address site-specific issues.

In addition, controllers and experts continue to raise concerns about ERAM’s
capabilities. While these issues are not expected to delay ERAM’s expected 2015
completion date, they will need to be addressed for the system to support most NextGen
initiatives. Two capabilities raise most stakeholder concerns:

● Flight Plan Trajectory Modeler—This capability models aircraft flight paths to
     predict aircraft conflicts and to ensure accurate handoffs between controllers as they
     communicate with pilots who transition to airspace controlled by another facility.
     However, the modeler software has often required adjustments to change the flight
     plan trajectory to ensure accurate handoffs. According to controllers, improvements
     are needed to support current operations and NextGen capabilities that use trajectory-
     based operations. 25

• Aircraft Tracking and Sensor Fusion—This capability allows ERAM to integrate—
  or “fuse”—multiple radars and satellite-based information for controllers. However,
  thus far, controllers have not been able to take advantage of this improved capability
  because of problems accurately integrating radar and satellite data. A MITRE analysis
  found that the ERAM tracker will require adjustments to use ADS-B and radar
  together to manage air traffic.

Moreover, two recent major system outages at two sites exposed new vulnerabilities in
the ERAM system. The more severe outage occurred on April 30, 2014, at the Los
Angeles Center and resulted in a significant disruption in air traffic control operations
that impacted thousands of travelers. According to FAA, the outage was triggered by a
flight plan for an Air Force aircraft flying at an extremely high-altitude—60,000 feet—
far above normal airline travel. This situation triggered an ERAM software glitch that
caused the system to attempt to alter other aircraft flight plans, which overloaded the
system for about 2 hours. Though less severe, ERAM also experienced an outage at the
Miami center in February 2014 that caused delays or cancellations of hundreds of flights.

FAA is working to address the root causes of these outages, has made emergency
modifications to the ERAM software, and plans to include a more permanent fix in the
next software release due later this year. Nevertheless, these outages raise questions about
the long-term stability and security of the system, as well as its ability to support
NextGen capabilities. It remains uncertain when ERAM will be stable enough to remove
the back-up legacy system as FAA intends.


24
   This includes both capital and operations funding but does not include NextGen efforts, which are also funded against the same
contract.
25
   Trajectory-based operations focus on more precisely managing aircraft from departure to arrival with the benefits of reduced
fuel consumption, lower operating costs, and reduced emissions.


                                                               8
FAA Faces Significant Cost, Schedule, and Technical Risks in Modernizing
or Replacing Automation Systems at Terminal Facilities
FAA’s TAMR program aims to modernize or replace all of the automation systems that
controllers rely on to manage traffic at terminal facilities with a single automation
platform—the Standard Terminal Automation Replacement System (STARS). If
effectively implemented, TAMR is expected to reduce Agency costs and facilitate the
implementation of NextGen capabilities. TAMR’s current effort involves modernizing
automation systems at 11 terminal facilities, 7 of which are the largest and busiest in the
Nation. FAA estimates this effort will cost $438 million and will be completed between
2015 and 2017.

However, as we reported in May 2013, 26 the Agency faces significant cost, schedule, and
technical risks to modernize these facilities. Specifically, FAA has yet to identify and
finalize all software and hardware requirements that are needed to successfully replace
the existing automation system 27 with STARS. Finalizing these requirements involves
extensive software development and testing—a lengthy and potentially costly process
should issues arise during testing. FAA is currently developing software to address
94 requirements gaps but anticipates identifying more gaps once it begins transitioning to
STARS at the busiest facilities. Moreover, because full STARS capability at the
11 terminal facilities is still years away, FAA continues to add new capabilities to
existing systems at select facilities to support air traffic operations. The longer FAA
maintains and updates existing systems at these sites, the greater the implementation and
cost risk because FAA will have to add the same capabilities to STARS.

Furthermore, FAA’s current cost and schedule estimates for its TAMR effort are not
reliable. For example, FAA’s approved program schedule does not include detailed
milestones for software testing and implementation, and was not assessed for risk per
Agency requirements. In addition, FAA’s experience deploying STARS at the first site at
Dallas Fort Worth Terminal Radar Approach Control (DFW TRACON) facility is
proving more difficult than expected. According to FAA, DFW TRACON achieved
initial operating capability (IOC), 28 however, software requirements remain unstable.
FAA has identified 46 additional requirements that will be needed to ensure STARS
provides at least the same capabilities as the existing system at the site. FAA also
determined that meeting the unique needs of the other 10 sites requires more
enhancements or modifications than originally planned. As a result, the true timelines and
costs to modernize terminal automation systems remain unknown, and FAA will likely
have to secure additional funds for the program.


26
    FAA’s Acquisition Strategy for Terminal Modernization is at Risk for Cost Increases, Schedule Delays, and Performance
Shortfalls (OIG Report Number: AV-2013-097), May 29, 2013.
27
    Common Automated Radar Terminal System (CARTS-IIIE) is the existing automation system currently at the 11 large
terminal facilities.
28
   Initial Operating Capability (IOC) is the milestone in which controllers begin to use the system on a limited basis to manage
traffic.


                                                                 9
We made a number of recommendations to better and more cost-efficiently manage
FAA’s terminal modernization efforts. FAA generally agreed with our recommendations
and has begun working to address them.

CONCLUSION
NextGen is a complex undertaking that will continue to pose challenges to FAA for years
to come—challenges that have been exacerbated by unrealistic plans, budgets, and
expectations for key NextGen programs. Going forward, FAA will need to provide a
clear understanding of Agency priorities to decisionmakers and stakeholders and how the
priorities are linked to its budgets. Most importantly, FAA must develop a reasonable and
transparent action plan with firm commitments on milestones and metrics for measuring
benefits—essential for building stakeholder confidence. Sustained leadership with clear
lines of accountability and authority will be key to accelerating NextGen progress. We
remain committed to monitoring FAA’s NextGen efforts and identifying opportunities to
improve implementation.
Chairwoman Cantwell, this concludes my prepared statement. I am happy to answer any
questions you or other members of the Subcommittee may have.




                                           10
